              "' \" , I V '   I, V VI   11"   . """"                                                  ",V,   I I II I   I .   L

     .
     "
;"


                                                 NATIONAL RAILROAD :PASSENGER CORPORATION
     I   '.                                           OFFICE OF THE INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS
                                                           INVESTIGATIVE REPORT

                     TITLE:                             P·CardfInv              CASE NUMBER: 07-027

                     DATE OF REIlORT:                  . March 18,2009

                     ImpORT PREPARED BY:                -_rv?
                    REPORT OF INTERVIEW: -X
                    REPORT OF DOCUMENTS: :
                    OTHER ACTIVITY O)ESCRIBE): Closing nepor!

                    ALLEGATlON

                  Ou FcbnlOty 20, 2007, the Office of Inspector General (UOIG"), Office of Im'estigati.Olls
                  received an              from a co)wdelltlnI source (<lCS"). TIle source stated
                  _                                                      hnd n $272.55 expenditure 011 All ",,'IU"II'.            ..
                  Purchasing Cord (UP-Card"). TIle expenditure W091110de 011 January 7. 2007. As dctailed,_ .
                  made a pleviou9lUlauthilrized InU'chase on a P·Card for $60.68, but in an interVIew wIth OJ Agents •
                  • • • claimed thatthe purchase was accldenta.l and that she bod paid the money back to Amtrak.
                  The CS feels Illot thIs $272.55 lmnsaction was not an accident alle1 it should be investigated by the
                  OIG.

                   FINDINGS

                   01 's investigation resulted in ~ Amtrnk Clerk, pleading to one COlUIt of
                   embozzlement of an Agent oftru~Court of the Stato o f _ . As n result of
                   this p l c a , _ was seJJtenced to two (2) years court supervised probation and ordered to pay
                   restitution to Amtrak in the amount of $2,222 fOI"the loss.

                                                                               admitted 111at she macle unniltlLOrized
                                                                               incidents,_was cOUl1seled by


                  OI's investigation fOlUld
                  had made purchases using her                was vac;atle)Jlirlg
                  investigatiol1,_wns terminated from Amtrak:

                  Ollnvestlgatloll found                                                                                               ' .
                 - - . . a l l Amtrak bngmeenng
                 ~ety Deparuuent for approval. . As·a result ofthis invostigatiOll, Mm\Agoment

                                                                         I
       IV'   I..VV~   I I ' L V "'"                                                                I I V I




      cOlmseled its cniployees who violated procedme and they reinforccd both the Personal Protective
(     Equipment ("PPE ") and P-Card policy and procedures with Its staffs.

     During the course of this investigation, OI found that                            ,_
     _            had used his P-Card to order and pay for m                           n sites to drive
     nulls Lnto surfaces. After purchasing the gun;_ _ _o~ home and used it on a kitcheil
     project at hIs house., As R l'esult of this investigation _'cceivcd II letter of imtruction
     regarding taking tools home ftlHl Engineering Department policy regmdtng taking small tools home
     was rescinded.                                  '                                    ,

      OJ fow1d that                                        all Amtrak Mflllagement used their Amtrak
     assigned                                         excess of$IOO. As nresult of the investigation
     the Procllrement, Human Resources, Marketlng and Transportation Depnrtment members were
     appropriately cOlmseled and the H1Unan Resource Department agreed to attempt to make changes to
     tlw Retirement Recognition Policy. The Humau Rcsources Department is in the process ofhavlllg
     the Arntruk Finance Department updating nnd fmalizing Amtrak's policy regarding this policy.

     OJ found                                                                      Ws P-Card in 2007 to pay
     $5,167 for food, one hmch cost $1 ,556, <Illother cost $1 ,335, and II third cost $775. These IWlches
     were within a three month period. Additionally, _               paid $452 for \00 dozen donuts for
     "Donut Day" fiud provided dOlluts for evelyone at Ivy City and Union Station. _tmelnred a
     $2,459 P-Card pl(t'chaso ofSqwincher, n product similar to Gatorade, from District Sofety Products.
    _           had his secretary stmclure the payment to District Safety Products to deliberately bypass
    the uso of a PurcJIRse Order Amtrak has with the company. _ u s e d four charges ,of$500 and
    one charge of$459, allan the same day, to pay for the Sqwincher. Additionally, _               advisee!
    tJlat he inadvertently lIsed the P-Card twice for personal purchases. _               explained thot he
    corrected the charges as'sool1 as he realtzed what he had done.

    As a result of OI's ulvestigation,_ was instmeted to within 30 days to l'eview P-Card
    Procedures, sepol'ote his personal creait cards from his Amtrak assIgned credit cards and he was
    to review the structure of his P-Card and assure it fits within usage requirements.

    OI found                                                          lIIade lUI authorized purcllases of
    COlnjllltel' relnted supplies   equipment. As a result of OI's contnets with IT mId AT members,
    tJ\Ose departments rea(UlIsted their lIse of the I'-Card.         '

    Two               employees have I'-Cmds. Theypurchased VCRs, satelliterodios, TVs, table cloths,
    meals, fhrnitlU'e, building suppltos; wheelchairs, pl\unbing services, truck batteries, snow blowers,
    phol\e cbargers, food and wine. No serial numbers were recorded for any of the property purchased.
    There wa's no recon[ as to wllat traIn car the item was placed in. Ifit was 11 mplacament, theec \vas 1\0
    reconl regarduIg the properly replaced. Eight olllployees who llsed the I'-Cnrds wcre interviewed
    about the items purchased. As a result of or s illvcstigntion,                  MrulBgOII\Ollt cOllsiderc(i
    maJntalnJjlg (\lnethod to account for Ull-illventoricd pl'opeJ'ly such ns TVs, VCRs and other items that


                                                        2
 havo serlai numb'crs'that cun be recorded, They also agreed to develop some method to recant t.he
 destmction of property when it is broken andlor takeu ant of service.

 01 found                                                                                    and April
 2007, made 2S purcbases wllh his P-Card at Home Depot, which wer6not reconciled J1\ tlTrax. As n
 result of 01' s inv(:Stigatioll, _     was counseled as to proper procedure for P-Cal'ds and his
 responsibility to Insure P-Cnrd transactions are properly reconciled for hlmselfancl anyone under his
 responsibility.                                                                        '


-.
 011 January 1

 received the

    1) Mrulagement should consider placing all the face of every P-Card a statemeut that reads that
       these cards are only to be used for Amtrak relnted purchases and not to bo accepted fOl'
       personal purohases.

    2)   Managell1en~   should cOJ)slder a piau to improve on the administering of the entire P-Card
         process keeping in mind that ill the wrong Jla1lds II P-Cnr<l can cost Amtrak a largc fUJ!lnciai
         loss in a short period oftime.

    3) Management should consider conducting ll'ain1ng In the propel' me ofP-Cards. Possibly all
       lntemot based tmining program that ClUl touch a larger employee populntion.

    4) Mnnagcmcnt should consider that each Department assigns ml employee to be in-charge of
       tho l'-Cnrd. Said employee should report to the P-C31'd AdmiJ)lstrator all activities regarding
       P-Cal'd use.

    5) Management shoilld consider an audit be conducted by the "adollS Departments every 6
       months. Tho results of the audit should be submitted to tho P-CardAdmlnlsttatol' fOl'l'eview.
       A coPy ofthe audit should be held by the Department for 3 years for 0I0/01 reviow. Iffraud,
       waste, abuse 01' Mismanagement are detected It shollld be reported inunediately to the
       OIG/OJ.

   6) Mnllagement should consider dlstrlbutillgthe accountubility ofthe P"CfU'd US0. It should be
         placed more ori the Departments that have been issued tho l'-Card and less on the P·Cnrd
         Administratol'.

On March 11, 2009, OI received a 1'~Spollse. On all the reCOnilllendntioDs Amtrak's Procurement
Deportmont conc\u'red and was tnking actions iutemally to issue new procedures to correct and
improve tile way Amtrak handles Its P-Cnrd program. See Exhibit 1 (Response).




                                                   3
"
     RECOMMENDATION
(    With no further leads or developUl~nts this case shQuid be closed pending any new infO.1'mation:

     DEPUTY lNSECPTOR        GENBRAL/CO~SBL:                .   tJ!/(;.     #<Ii
      .                                                                jJ
                                                                                              '"   ,
                                                                  '.
                                                                                    '.!~""
                                                                                       ......... .
                                                                                        . '                ..
                                                                                    . ...   .. .       '    ,.
                                                                                                                ~



                                                                                            . .        ~~




{
'.                                                  4
